                                                           UNITED STATES DEPARTMENT OF COMMERCE
                                                           Office of Inspector General
                                                           Washington, D.C. 20230




April 11, 2014

MEMORANDUM FOR: 	 Michelle K. Lee
                  Acting Under Secretary of Commerce for Intellectual Property

                               :n::ct:~e~irectof:he U
                                                    t PatgzmarkOffice
                                           Ass~spector~eral for Audits and Evaluation
FROM:
                               Principal

SUBJECT: 	                     Audit of USPTO's Quality Assurance Practices

As part of our fiscal year 2014 audit and evaluation plan, we will conduct an audit of the quality
assurance practices of the United Stat es Patent and Trademark Office (USPTO).
Our objectives are to:
      • 	 Determine the sufficiency of USPTO's quality assurance program's processes to prevent
          the issuance of low-quality patents.
      • 	 Assess the additional quality reviews performed by USPTO to measure examiner
          performance and ensure that examiners are fully qualified to issue patent determinations
          without supervisory review.
We will contact the audit liaison to arrange an entrance conference. In the interim, we will send
you a request for documents. Please provide us with the information requested within 2 weeks
of receiving this request. In the meantime, if you have any questions about this audit, call Carol
Rice, Division Director, at (202) 482-6020 or Melanie Caesar Danberg, Program Analyst, at
(202) 482-2710. Thank you in advance for your cooperation.



cc:      Margaret A Focarino, Comm issioner for Patents, USPTO
         Anthony P. Scardino, Chief Financial Officer, USPTO
         Welton Lloyd, Audit Liaison, USPTO
